           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      INDIVIDUAL VOLUME
     REPRESENTATIVE PAYEE
       IN TOPEKA, KANSAS

   August 2008   A-07-08-18039




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      August 28, 2008                                                              Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Individual Volume Representative Payee in Topeka, Kansas (A-07-08-18039)


           OBJECTIVE
           Our objectives were to determine whether this individual volume representative payee
           for the Social Security Administration (SSA) (1) had effective safeguards over the
           receipt and disbursement of Social Security benefits, (2) used and accounted for Social
           Security benefits in accordance with SSA policies and procedures, and (3) adequately
           protected the beneficiaries’ personally identifiable information (PII).

           BACKGROUND

           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries’
           payments. 1, 2 A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
           beneficiaries or Supplemental Security Income (SSI) recipients when representative
           payments would serve the individuals’ interests. Representative payees are
           responsible for managing benefits in the best interest of the beneficiary. 3 See
           Appendix B for additional representative payee responsibilities.




           1
               We use the term “beneficiary” in this report to refer to both OASDI beneficiaries and SSI recipients.
           2
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           3
               We use the term “benefits” in this report to refer to both OASDI benefits and SSI payments.
Page 2 – Michael W. Grochowski

The individual representative payee under review is a volume payee, which is a payee
who administers benefits for 15 or more Social Security beneficiaries. The
representative payee received payments under SSA’s OASDI and SSI programs on
behalf of 57 adults living in Topeka, Kansas, during the audit period of July 1, 2005 to
June 30, 2007. SSA’s Kansas City Regional Office requested that we perform this
audit because of issues identified in its February 2007 review of the representative
payee. See Appendix C for the Scope and Methodology of our review.

RESULTS OF REVIEW
We found that the representative payee did not use and account for Social Security
benefits in accordance with SSA policies and procedures. Specifically, the
representative payee:

   •   inappropriately charged 45 beneficiaries a total of $33,521 for his representative
       payee services,
   •   failed to return $3,937 in conserved funds to SSA when his services as a payee
       ended for 6 beneficiaries, and
   •   allowed bank balances to exceed the $2,000 resource limit for 2 SSI
       beneficiaries.

We also found that the representative payee did not have effective safeguards over the
receipt and disbursement of Social Security benefits. Specifically, the representative
payee:

   •   did not maintain documentation to support how most of the beneficiary funds
       were used, and
   •   held funds received for 11 Social Security beneficiaries and 8 other individuals in
       a collective account that did not meet SSA requirements.

Further, we found that improvements were needed in the representative payee’s
controls for physically securing beneficiaries’ PII, financial records, and other cash
funds. Lastly, we found that the representative payee managed benefits on behalf of
five Social Security beneficiaries for whom he was not the representative payee of
record.

USE AND ACCOUNTING FOR SOCIAL SECURITY BENEFITS

We found that the representative payee did not use and account for Social Security
benefits in accordance with SSA policies and procedures. Specifically, the
representative payee inappropriately charged Social Security beneficiaries a fee for his
services, did not return conserved funds to SSA when his payee services ended, and
allowed beneficiary bank balances to exceed the $2,000 SSI resource limit.
Page 3 – Michael W. Grochowski

Unallowable Representative Payee Fees

During our 2-year audit period, the individual representative payee inappropriately
charged 45 Social Security beneficiaries a total of $33,521 for representative payee
services. 4 In its February 2007 review, SSA found the representative payee was
charging beneficiaries unallowable fees. In March 2007, SSA instructed the
representative payee that these fees were unallowable. However, we determined that
the representative payee continued to take fees from 5 of the 45 beneficiaries for at
least 4 months after SSA’s review (March through June 2007). Although our audit
period ended in June 2007, the representative payee may have continued to charge
unallowable fees to some Social Security beneficiaries from July 2007 to the present.

SSA’s policy prohibits individual representative payees from collecting a fee from Social
Security benefits for representative payee services except in certain circumstances,
such as court-ordered fees and fees for serving as a legal guardian. 5 The
representative payee did not meet circumstances that allowed him to charge a fee for
providing services to these Social Security beneficiaries. Therefore, the $33,521 in
fees charged to Social Security beneficiaries for representative payee services were
unallowable. The funds should have been saved or used to meet the beneficiaries’
needs (food, shelter, and clothing). 6

Conserved Funds Were Not Returned

SSA requires that representative payees return Social Security funds that have been
conserved or unused when their payee services are terminated or are no longer
         7
required. SSA will then reissue the funds to the successor representative payee or the
beneficiary in direct payment. 8 However, the representative payee did not return
$3,937 in conserved funds to SSA when his services for six beneficiaries ended.




4
  In a February 2007 review of this individual representative payee, SSA found the representative payee
was inappropriately charging 9 of the 10 beneficiaries included in its review a fee for the services he
provided. In requesting this audit, SSA asked us to quantify the amount of inappropriate fees collected
from all beneficiaries for which he served as representative payee.
5
 SSA, POMS, GN 00602.110.A, GN 00602.040; SSA, A Guide for Representative Payees
(No. 05-10076), p. 2, February 2006.
6
    SSA, POMS, GN 00602.001.A.2.
7
 An exception to returning funds to SSA is when a beneficiary dies. The representative payee should
send conserved funds to the legal representative of the beneficiary’s estate (SSA, POMS,
GN 00603.100.B.2).
8
 SSA, POMS, GN 00603.055.A, GN 00502.113.D.1; SSA, Guide for Representative Payees
(No. 05-10076), p. 17, February 2006.
Page 4 – Michael W. Grochowski

Instead of returning the money to SSA, the representative payee gave five beneficiaries
the conserved funds directly, and in the sixth case, the conserved funds were given to
the beneficiary’s relative. When conserved funds are not returned, SSA is unaware
they exist and cannot direct the funds to the new payee so the beneficiary’s needs can
continue to be met. Given that beneficiaries with representative payees were deemed
incapable of managing their Social Security benefits, 9 there is no guarantee that
conserved funds given to the beneficiaries or a relative will be used appropriately.

Excess SSI Resources

The representative payee allowed the bank balances of two SSI beneficiaries to exceed
the $2,000 resource limit and did not report the excess resources to SSA. One
beneficiary’s bank balance exceeded the $2,000 limit during 10 months of our audit
period in amounts ranging from $205 to $900. The other beneficiary’s bank balance
exceeded the $2,000 limit during 10 months of our audit period in amounts ranging from
$14 to $841.

The representative payee is responsible for using benefits in the best interest of the
beneficiaries and reporting to SSA when the SSI resources for beneficiaries exceed the
$2,000 limit. 10 Because the representative payee did not closely monitor the bank
balances and take timely action to spend down the funds when the balances exceeded
the $2,000 limit, the beneficiaries’ eligibility for SSI payments could have been
          11
impacted.

RECEIPT AND DISBURSEMENT OF SOCIAL SECURITY BENEFITS

We found the representative payee did not have adequate internal controls for the
receipt and disbursement of Social Security benefits. Specifically, the representative
payee did not maintain supporting documentation that would account for most of the
expenditures of beneficiaries’ funds. In addition, the collective bank account used by
the representative payee to receive and hold beneficiaries’ Social Security benefits did
                               12
not meet SSA’s requirements.




9
    SSA, POMS, GN 00502.001.A.
10
   20 C.F.R. §§ 416.635 and 416.1205; SSA, POMS SI 01110.003.A.2, GN 00502.113.D.1; SSA, Guide
for Representative Payees (No. 05-10076), p. 7, February 2006.
11
     SSA, POMS, GN 00603.001.B.2, GN 00502.113.E.3c.
12
     20 C.F.R. §§ 416.665 and 416.645.
Page 5 – Michael W. Grochowski

Insufficient Supporting Documentation

The representative payee did not maintain receipts or other documentation to account
for how 89 percent of the total expenditure of beneficiaries’ funds was spent during our
2-year audit period. Specifically, of the $1,030,223 in beneficiaries’ funds expended, 13
the representative payee did not have receipts or other supporting documentation for
$913,606. 14 We found that the 11 percent of expenditures that were supported by
receipts were for the beneficiaries’ needs. For the $913,606 not supported by receipts,
we examined the representative payee’s check register transactions to identify the
purpose of the expenditures. The check register documented expenditures for what
appeared to be legitimate purposes such as rent, utilities and other miscellaneous
expenses. Although we cannot confirm how these funds were expended without
receipts, nothing came to our attention during the examination of the check register that
lead us to believe the expenditures were not for the beneficiaries’ needs. Further, our
interviews with 11 Social Security beneficiaries did not disclose any concerns that lead
us to believe the beneficiaries’ needs were not being met.

The $913,606 included $23,319 disbursed to beneficiaries for personal allowances and
other needs from July 2005 through February 2007. For these cash disbursements, the
representative payee did not maintain a cash log to show the beneficiaries actually
received the cash. In March 2007, the representative payee began documenting cash
disbursements in a cash log where the beneficiaries would certify the cash was
received. 15 We reviewed the cash log for the period March to June 2007 and found
that the signatures in the cash log corresponded with cash payments made to
beneficiaries as recorded in the check registers. However, during our interviews with
beneficiaries in December 2007, we observed the representative payee providing cash
allowances to three beneficiaries, but the representative payee did not have the
beneficiaries sign the cash log to indicate receiving the cash. Based on these
observations, we believe the representative payee continues to have weaknesses in his
internal controls over the disbursement of cash allowances to beneficiaries.

SSA requires that representative payees keep accurate and complete records to show
how benefits are used. 16 Therefore, the representative payee should maintain receipts,
cancelled checks, bills, bank statements, cash logs and other applicable documentation
to show that Social Security benefits were spent for the beneficiaries’ needs.




13
     This amount does not include unallowable fees of $33,521 discussed on Page 3 of this report.
14
  The types of missing documentation included lease and care facility agreements and receipts for food,
rent, medical care, and cash allowances.
15
     As a result of SSA’s February 2007 review, the representative payee began keeping a cash log.
16
     20 C.F.R. §§ 404.2065 and 416.665.
Page 6 – Michael W. Grochowski

Maintenance of such documentation is a safeguard the individual representative payee
should have in place for all beneficiary expenditures regardless of the monetary value
to show that the expenditures were needed and appropriate for the beneficiary.

Collective Bank Account Did Not Meet SSA Requirements

We reviewed the collective bank account and found it held the funds of 11 Social
Security beneficiaries and 8 other individuals. 17 Our review disclosed that the
representative payee did not:

       •   request SSA approval to use the collective account for Social Security
           beneficiaries,
       •   properly title the account to show the funds belonged to the beneficiaries, and
       •   provide a clear financial accounting for each Social Security beneficiary in the
           account with a verifiable paper trail.

A representative payee with a collective bank account must seek approval for the
account from SSA. Approval is required so SSA can monitor these accounts every
                                                           18
3 years to ensure they comply with SSA requirements. The collective accounts must
also be properly titled to protect beneficiaries’ funds from loss or theft if the payee has
financial problems or declares bankruptcy. The Federal Deposit Insurance Corporation
insures bank deposits for individuals in collective accounts if the relationship between
                                                                                19
the account holder and its clients is shown in the deposit account records. The
account title must show that funds belong to the beneficiary, and the representative
payee only has fiduciary rather than personal interest in the funds. 20 We found that the
collective account was titled with the representative payee’s name only and did not
reflect the beneficiaries’ ownership of their Social Security benefits. Because the
representative payee titled the account to show he owned the funds, the beneficiaries’
assets were at-risk for loss or theft.

In addition, we found that the representative payee did not have a clear financial
accounting for each beneficiary in the collective account. For example, the accounting
records sometimes omitted the name of the beneficiary to whom the transaction
applied, the purposes for some transactions were not understandable without oral
explanation, and individual balances were not posted until the representative payee did
the monthly reconciliation. Further, receipts and other documentation were not always

17
  During its February 2007 review of the representative payee, SSA found that a collective bank account
existed that contained funds for multiple individuals including Social Security beneficiaries.
18
     SSA, POMS, GN 00603.020.B.
19
     12 C.F.R. § 330.5(b)(1).
20
  SSA, POMS, GN 00603.020.B.1.a; SSA, Guide for Representative Payees (No. 05-10076), p. 11,
February 2006.
Page 7 – Michael W. Grochowski

available to establish a verifiable paper trail. SSA requires a clear financial accounting
                                                 21
for each beneficiary in the collective account. Without clear financial accounting and
a verifiable paper trail (supporting receipts), the representative payee cannot prove to
SSA that beneficiaries’ funds are being used in their best interest.

PROTECTION OF PII AND OTHER ASSETS

We found the representative payee did not have internal controls to adequately protect
the beneficiaries’ PII, financial records, and cash funds. Specifically, the representative
payee did not have adequate physical security controls to restrict unauthorized access
to beneficiaries’ records and assets. The representative payee stated that he
maintained individual files for Social Security beneficiaries at his personal residence.
He reported the files were not locked in a secured cabinet or safe. The files contained
check registers, blank checks, bank statements, and receipts—all with PII such as
names, addresses, and account numbers.

Further, the representative payee estimated that he kept approximately $1,500 of
beneficiaries’ funds at his personal residence in an unlocked desk drawer. The lack of
access restrictions and physical safeguards for maintaining sensitive personal and
financial information of beneficiaries, as well as beneficiaries’ cash, increases the risk of
loss or unauthorized use of beneficiaries’ personal information and funds.

UNREPRESENTED BENEFICIARIES

The representative payee informed us that he had power of attorney and received
benefits on behalf of five Social Security beneficiaries for whom he was not the
representative payee of record. When we requested information on these Social
Security beneficiaries, the payee stated he had a private contractual relationship with
these clients and refused our request.

Since the representative payee had power of attorney for these individuals, they may
have been incapable of managing or directing the management of their benefit
payments. Therefore, SSA should work with the representative payee to identify these
beneficiaries and determine whether the interests of these beneficiaries would be better
served by designating a representative payee so benefits can be monitored to ensure
funds are used in the best interest of the beneficiaries. 22




21
 SSA, POMS, GN 00603.020.B.1.e; SSA Expanded Monitoring Report letter to the representative payee,
March 2007.
22
     20 C.F.R. §§ 404.2065 and 416.665; SSA, POMS, GN 00502.001.A.
Page 8 – Michael W. Grochowski

CONCLUSIONS AND RECOMMENDATIONS
We found that the representative payee did not (1) effectively safeguard the receipt and
disbursement of Social Security benefits, (2) use and account for benefits in
accordance with SSA policies and procedures, and (3) adequately protect beneficiaries’
PII. We also found the representative payee managed benefits on behalf of five Social
Security beneficiaries for whom he was not the representative payee of record.

We recommend that SSA:

1. Refrain from placing additional beneficiaries with this individual representative payee
   until the representative payee has implemented corrective actions to ensure Social
   Security benefits are properly used and accounted for. If these corrective actions
   are not implemented timely, place each of this representative payee’s beneficiaries
   with a new representative payee.

2. Take appropriate actions to seek restitution of $33,521 on behalf of the
   45 beneficiaries from whom the representative payee collected unallowable fees
   during the period July 1, 2005 through June 30, 2007.

3. Determine whether the representative payee collected unallowable fees from
   beneficiaries from July 1, 2007 to the present, take appropriate actions to seek
   restitution on behalf of the affected beneficiaries, and instruct the payee to
   discontinue collecting unallowable fees.

4. Remind the representative payee to return conserved funds to SSA when
   representative payee services for a beneficiary cease.

5. Instruct the representative payee to monitor SSI beneficiaries’ account balances
   monthly to avoid excess resources.

6. Remind the representative payee to maintain sufficient documentation to show that
   Social Security benefits are used in the best interest of the beneficiaries.

7. Instruct the representative payee to follow SSA’s requirements for the use of
   collective bank accounts.

8. Remind the representative payee to implement physical security controls to
   safeguard beneficiaries’ financial records, PII, and cash funds.

9. Determine whether the beneficiaries for whom the representative payee is not the
   payee of record should be assigned a representative payee.
Page 9 – Michael W. Grochowski

SSA COMMENTS

SSA agreed with our recommendations. See Appendix D for the full text of SSA’s
comments.

REPRESENTATIVE PAYEE COMMENTS

In commenting on the draft report, the representative payee contends that the
$33,521 in fees collected from Social Security beneficiaries were for expense
reimbursements and were allowable based on an understanding he had with SSA that
a modest informal reimbursement to pay expenses was allowed. Further, the
representative payee states that he did not collect fees from Social Security
beneficiaries after February 2007. The representative payee also disagreed with our
finding that the bank balances of beneficiaries exceeded the $2,000 resource limit. See
Appendix E for the full text of the representative payee’s comments.

OIG RESPONSE

According to SSA, there was no agreement in place that allowed the representative
payee to collect the $33,521 in fees. Also, the representative payee had no
documentation to show that these funds were spent for beneficiaries’ expenses.
Further, in a February 2007 review of this representative payee, SSA also reported that
the representative payee was inappropriately charging beneficiaries a fee for the
services he provided. Documentation obtained during our review also showed that the
representative payee continued to collect fees from 5 beneficiaries after February 2007.
Finally, bank balance information reviewed during our audit confirmed that the bank
balances for 2 beneficiaries exceeded the $2,000 resource limit.




                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – Representative Payee Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
PII      Personally Identifiable Information
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include: 1

•     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs,

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs,

•     Maintain accounting records of how the benefits are received and used,

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount,

•     Report any changes in circumstances that would affect their performance as a
      representative payee,

•     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested,

•     Return any payments to SSA for which the beneficiary is not entitled,

•     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary, and

•     Be aware of any other income Supplemental Security Income recipients may have
      and monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. § 404, subpart U, and § 416, subpart F.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period July 1, 2005 through June 30, 2007. To accomplish our
objectives, we:

•   Reviewed applicable Federal regulations, the Social Security Act, and Social
    Security Administration (SSA) policies and procedures pertaining to representative
    payees.

•   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.

•   Contacted the SSA Kansas City Regional Office and Topeka, Kansas, field office
    staffs to obtain background information and prior audits regarding the individual
    representative payee.

•   Compared and reconciled a list of Social Security beneficiaries in the representative
    payee’s care from the payee to a list obtained from the Kansas City Regional Office.

•   Reviewed the representative payee’s internal controls over the receipt and
    disbursement of Social Security benefits.

•   Reviewed the 57 beneficiaries in the representative payee’s care during the audit
    period and performed the following tests:

    o Compared and reconciled benefit amounts received according to the payee’s
      records to benefit amounts paid according to SSA’s records.
    o Reviewed the payee’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf.
    o Traced a sample of recorded expenses to source documents (50 cancelled
      checks) and examined the documentation for reasonableness and authenticity.
    o Reconciled bank records and representative payee’s records for three
      judgmentally selected beneficiaries.

•   Observed the living conditions and interviewed a non-random sample of
    11 beneficiaries to determine whether their basic needs were being met.

•   Reviewed the most current Representative Payee Accounting Reports for 37 of the
    57 beneficiaries to determine whether the representative payee properly reported to
    SSA how benefits were used.




                                           C-1
We performed our fieldwork for the audit in Kansas City, Missouri, and Topeka,
Kansas, between August 2007 and March 2008. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                         C-2
                  Appendix D

Agency Comments
From:            ||KC ORC
Sent:            Thursday, July 31, 2008 4:38 PM
To:              O'Carroll, Pat
Cc:              Spindler, Mindy; Cancelliere, Ann; Skurnik, Candace; Rodriguez, Carla; Swann, Erica; Lawson, Wayne; Bailey,
                 Mark; Coffelt, Tonya; Bussell, Ronald; Cockrell, Carol; Kilgallon, Pam; Stone, Gale; Schaeffer, Steve; Karpe,
                 Brian; Hinton, Jerrod; Ireland, Sally; Hall, Cassandra L.; White, Jackie HQ OIG; Cheek, Andrea; ||KC ARC
                 MOS; ||KC DRC; ||KC CPS; Smith, Kathy Ann RO Kansas City; Lynd, Kelly; Teegarden, Michelle; Oster Radke,
                 Cyndie
Subject:         Signed Draft Report (A-07-08-18039)--Kansas City Response
Importance:      High

To:       Inspector General

From: Regional Commissioner
      Kansas City Region

Subject: OIG Draft Report: Individual Volume Representative Payee in Topeka, Kansas –
Response

Thank you for the opportunity to comment on the above draft report. Our comments are listed
below.

Recommendation 1 – SSA should refrain from placing additional beneficiaries with this
individual representative payee until the representative payee has implemented corrective actions
to ensure Social Security benefits are properly used and accounted for. If these corrective actions
are not implemented timely, place each of this representative payee’s beneficiaries with a new
representative payee.

      •   We agree with this recommendation. On June 16, 2008, the Topeka field office
          annotated the Representative Payee System (RPS) and released office instructions to
          discontinue selecting this payee until further notice.
      •   If these corrective actions are not implemented timely, we will place each of this
          representative payee’s beneficiaries with a new representative payee.

Recommendation 2 – SSA should take appropriate action to seek restitution of $33,521 on
behalf of the 45 beneficiaries/recipients from whom the representative payee collected
unallowable fees during the period July 1, 2005 through June 30, 2007.

      •   We agree with this recommendation. The individual names, social security numbers and
          misused amounts have been provided to the Topeka field office. The field office is in the
          process of making misuse determinations on the 45 beneficiaries/recipients. Upon
          completion of the determinations the field office will make restitution to the
          beneficiaries/recipients and seek recovery from the representative payee.

Recommendation 3 – SSA should determine whether the representative payee collected
unallowable fees from beneficiaries from July 1, 2007 to the present, take appropriate actions to
seek restitution on behalf of the affected beneficiaries, and instruct the payee to discontinue
collecting unallowable fees.



                                                           D-1
   •   We agree with this recommendation. The Topeka field office has instructed the
       representative payee to discontinue collecting fee and will conduct a follow-up visit in
       December 2008. The Representative Payee Monitoring Application (RPMA) has been
       updated to reflect the follow-up.

Recommendation 4 – SSA should remind the representative payee to return conserved funds to
SSA when representative payee services for a beneficiary cease.

   •   We agree with this recommendation. The representative payee had been provided
       instructions on Social Security’s conserved fund policy.

Recommendation 5 – SSA should instruct representative payee to monitor SSI beneficiaries’
account balances monthly to avoid excess resources.

   •   We agree with this recommendation. The Topeka field office will continue to work with
       representative payee to ensure SSI balances are monitored regularly.

Recommendation 6 – SSA should remind the representative payee to maintain sufficient
documentation to show that Social Security benefits are used in the best interest of the
beneficiaries.

   •   We agree with this recommendation. The representative payee has been provided
       instructions on methods of properly documenting and maintaining records.

Recommendation 7 – SSA should instruct the representative payee to follow SSA’s
requirements for the use of collective bank accounts.

   •   We agree with this recommendation. The representative payee has been provided
       instructions on establishing and maintaining a collective bank account for SSA
       beneficiaries/recipients.

Recommendation 8 – SSA should remind the representative payee to implement physical
security controls to safeguard beneficiaries’ financial records, PII, and cash funds.

   •   We agree with this recommendation. The representative payee has been provided the fact
       sheet on “Protecting Personal Information”.

Recommendation 9 – SSA should determine whether the beneficiaries for whom the
representative payee is not the payee of record should be assigned a representative payee.

   •   We agree with this recommendation. The Topeka field office will contact the
       representative payee to determine the names of the individuals for whom the
       representative payee receives and monitors benefits but is not serving as representative
       payee. If the individual names are provided the Topeka field office will conduct
       capability determinations and select a representative payee where necessary.


                                               D-2
The Topeka field office will continue to work closely with the representative payee to ensure all
recommendations are implemented. If the current payee’s practices do not improve and/or
restitution for the misused funds are not recovered, new representative payee(s) will be selected
for the beneficiaries/recipients involved.

If you have any questions, please contact me at 816-936-5700. If your staff needs additional
information or assistance, they may contact Kathy Smith, Center for Programs Support, at 816-
936-5643.

                                             /s/

                                             Michael W. Grochowski




                                               D-3
                                Appendix E

Representative Payee Comments
E-1
E-2
E-3
E-4
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division, (816) 936-5591

   Ron Bussell, Audit Manager, (816) 936-5577

Acknowledgments

In addition to those named above:

   Tonya Coffelt, Auditor-in-Charge

   Carol Cockrell, Evaluator


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-07-08-18039.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
